               REVIEW OF SPACE UTILIZATION
                          IN THE
                FRANCES PERKINS BUILDING




OFFICE OF THE ASSISTANT SECRETARY FOR ADMINISTRATION AND MANAGEMENT


_______________________________________________________________




                                    Report No. 2E-07-731-0001
                                    Date Issued: September 27, 2000
                                                 TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          1. DOL is Not Enforcing Targeted Utilization Rates . . . . . . . . . . . . . . . . . . . . . 3

          2. OASAM is Not Consistently Analyzing Space Utilization Rates . . . . . . . . . 6

          3. DOL’s Space Initiative was not Achieved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     Major FPB Planned Space Realignments Within the FPB
                     Which Did Not Occur . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     Planned Movement Into the FPB During Review Period . . . . . . . . . . . . . . . . . . . . 13

OASAM RESPONSE AND OIG CONCLUSIONS . . . . . . . . . . . . . . . .. . . .. . . . . . . . .. . . . . 17

EXHIBITS

          Exhibit 1 - Space Utilization of the Frances Perkins Building FY 1996–2000 . . . . . . . . . 20

          Exhibit 2 - Examples of Agency Overpayment of Rent . . . . . . . . . . . . . . . . . . . . . . . . . . 22

          Exhibit 3 - Current DLMS Space Management Responsibilities . . . . . . . . . . . . . . . . . . . 24

          Exhibit 4 - New Pricing Policy Information/GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

APPENDIX

          Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . .28
                              ACRONYMS




ALJ    Administrative Law Judges    OASAM      Office of the Assistant
                                               Secretary for Administration
BOC    Business Operations Center              and Management

BRB    Benefits Review Board        OFCCP      Office of Federal Contract
                                               Compliance Programs
DLMS   Department of Labor
       Manual Series                OLMS       Office of Labor-
                                               Management Standards
DOL    Department of Labor
                                    OMAP       Office of Management,
ECAB   Employees’ Compensation                 Administration, and Planning
       Appeals Board
                                    OSTM       Office of Space and
ESA    Employment Standards                    Telecommunications
       Administration                          Management

FPB    Frances Perkins Building     OWCPOffice of Workers’ Compensation
                                        Programs
FTE    Full Time Equivalent
                                    SOL        Solicitor of Labor
FY     Fiscal Year
                                    VETS       Veterans’ Employment and
IG     Inspector General                       Training Services

ILAB   Bureau of International      WB         Women’s Bureau
       Labor Affairs
                                    WHD        Wage Hour Division
MSHA   Mine Safety and Health
       Administration




                                    i
                                     EXECUTIVE SUMMARY

We conducted this evaluation to assess the Department of Labor’s (DOL) efforts in attaining optimum
utilization of space in the Frances Perkins Building (FPB). Our evaluation covered Fiscal Years 1996
through 2000. The evaluation was designed to provide information on DOL’s conformance to
regulations pertaining to space, evaluate the actual utilization of space over a specified time frame, and
make recommendations for any necessary improvements in space utilization in the FPB.


 RESULTS OF EVALUATION

Our evaluation identified several areas where improvements, if implemented, should ultimately result in
cost savings to DOL in the millions of dollars. Implementation of our recommendations will improve the
ability of the Office of Space and Telecommunications Management (OSTM) to more effectively
oversee the space management program in the FPB.

FINDING 1 - DOL is Not Enforcing Targeted Space Utilization Rates

DOL’s written policies and procedures are in conformance with standards developed by the General
Services Administration (GSA). However, enforcement by OASAM and agency heads of DOL’s
targeted utilization rate has not occurred. As a result, we estimate that DOL is paying $3.5 million
annually for underutilized space in the FPB.

FINDING 2 -OASAM is Not Consistently Analyzing Space Utilization Rates

(a) Staffing information, including contractor usage, is not provided to the Office of Space and
Telecommunications Management group annually, as required of agency heads in the current and draft
of the revised DLMS on Space Management.

(b) There is a lack of consistency in OASAM’s analysis of actual space utilization in the FPB, due in
part to the agencies’ failure to provide required staffing information. For example, (a) the targeted
versus actual space utilization rates of DOL agencies, (b) agency costs versus utilization rates, and (c)
use of space in the FPB by contracted employees has not been consistently examined, with results
communicated to agency heads. OASAM has both the staff and the ability to perform these analysis
when all the required information is received.




                                                     ii
FINDING 3 - DOL’s Space Initiative was not Achieved

The objective of the space initiative was to increase the effective utilization of space within the FPB
through internal realignments and the relocation of Headquarters’ employees from satellite locations into
the FPB, leaving only the Bureau of Labor Statistics located in the Postal Square Building. In 1998,
OASAM estimated that the downsizing and relocation initiative would save the Department a minimum
of approximately $3,900,000 in rent each year after completion.

Several planned moves for the consolidation of DOL Headquarters’ staff into the FPB were not
completed. Several planned internal realignments of agencies in the FPB did not occur, due in part to
stalled negotiations with the American Federation of Government Employees - Local 12.


 RECOMMENDATIONS

1.      OASAM needs to reemphasize DOL’s space management program in the FPB. Agency
        heads should be informed they will be held accountable for making concerted efforts to achieve
        the targeted space utilization rate in accordance with DOL policy.

2.      (a) OASAM/OSTM should inform agency heads of the need to obtain accurate staffing
        information, including contractor usage, on a quarterly basis. Each agency and sub-agency
        (e.g., ESA–OMAP, OFCCP, OLMS, OWCP, WHD, etc.) should be held accountable for
        providing OSTM with support documentation pertaining to the staffing numbers (e.g., employee
        name, social security and/or badge number, and job title for DOL and contractor employees
        alike). Should an agency fail to provide staffing information on a regular basis, the agency head
        should be notified.

        (b) OASAM should conduct quarterly analyses on space utilization for each agency and sub-
        agency in the FPB, and on that leased space outside the FPB which houses headquarters’
        employees. The reports should highlight: the targeted versus actual utilization rate; actual rental
        costs versus targeted rental costs; and use of space by contracted employees, including
        associated rental costs.

        (c) The resulting utilization trend reports should be disseminated to each agency and sub-
        agency quarterly.

        (d) The draft of the revised DLMS on space management should continue to assign the
        responsibility for providing specific staffing information, including contractor usage, to the
        agency heads, and assign the responsibility for requesting the information to OSTM.


                                                     iii
3.     OASAM should reevaluate the proposals for realignment of agencies within the FPB, and the
       relocation of MSHA, SOL and the ALJ into the FPB, through the following steps:

       (a)     Following the completion of the first quarterly space utilization analysis for the Women’s
               Bureau and the Office of Federal Contract Compliance Programs, OASAM should
               reevaluate the need for the agencies to pursue labor negotiations with Local 12. The
               decision to request that the agencies move forward with the stalled union negotiations
               should be dictated by the difference between the actual and targeted utilization rates,
               based on current staffing figures which have been verified by OSTM. Use of
               contractors by OFCCP and the WB should also be addressed in the report. OSTM
               should highlight the cost factors in allowing the agencies to continue their underutilization
               of space, as well as costs associated with contracted employees. Agency heads
               (OFCCP and WB) and the Assistant Secretary for ESA should be notified in writing of
               OASAM’s findings.

       (b)     Upon completion of the space utilization trend analyses for each agency and sub-
               agency in the FPB, and for the leased space which houses Headquarters’ employees,
               OASAM should reevaluate the feasibility of moving any or all of these agencies into the
               FPB–MSHA, ALJ, SOL. This evaluation should include analysis on the amount of
               space used by contractors in the FPB versus the amount of space needed to move
               these agency Headquarters’ employees into the FPB. The report should contain
               specific recommendations and outcomes based on associated costs incurred and
               potential savings (i.e. rental fees, estimated move costs, etc.). The report should be
               shared with the Office of the Secretary of Labor.



 OASAM RESPONSE AND OIG CONCLUSIONS

The agency’s response to the OIG’s official draft report agrees with the recommendations made. The
recommendations have been resolved and will be considered closed upon OIG’s receipt of the
documentation detailed in the “OASAM Response and OIG Conclusions” section of the report. The
agency’s complete response is found in the Appendix.




                                                    iv
                                          BACKGROUND

The Frances Perkins Building serves as the National Office headquarters facility for the Department of
Labor. However, as of July 2000, the Department is also renting 602,624 square feet of office space
at six additional sites in the Washington metropolitan area in order to house DOL Headquarters’
employees.

In DOL, the Office of the Assistant Secretary of Administration and Management is responsible for the
planning and administration of the Department’s space management and telecommunications programs.
The Office of Space and Telecommunications Management, a division of the Business Operations
Center, has direct responsibility for all space management issues concerning the FPB, including:
administration of the programs; making recommendations to ensure conformance with the General
Services Administration (GSA) standards; coordination of space planning; reviewing and evaluating
requests for all space changes; developing and monitoring a space utilization survey program; and
overseeing the development and implementation of space realignment plans to improve utilization of
space.

Since moving into the FPB in 1975, the Department has been in a continuous process of renovating and
realigning space among its agencies. As agencies have expanded and contracted over the years,
specific projects were undertaken to either move satellite offices or agencies into the FPB, or locate
and renovate space outside the FPB to accommodate the needs of expanding programs. Such moves
and realignments are reviewed with the American Federation of Government Employees–Local 12, in
accordance with article 23 of the labor agreement between the Department of Labor and the National
Council of Field Labor Locals. While the article states that it is desirable that issues concerning space
be resolved informally through discussion among the affected employees, the office steward, and local
management, there is an understanding that any unresolved issues can always become the subject of
formal midterm bargaining.




                                                    1
                               PURPOSE AND METHODOLOGY


  PURPOSE

The purpose of this evaluation was to assess the Department of Labor’s (DOL) efforts in attaining
optimum utilization of space in the Frances Perkins Building (FPB). Specifically, we addressed DOL’s
current Space Management policies and procedures, space utilization trends in the Frances Perkins
Building over a five year period, and plans to improve and/or maintain proper space utilization in the
FPB.

This evaluation was conducted in support of the Office of the Assistant Secretary for Administration
and Management’s strategic goal number 3.2–reduce DOL space bill by more than $4.0 million by the
end of FY 2000 through increased efficiency of the internal DOL work space.1 It also assists the DOL
in meeting its strategic goal #6–Departmental Strategic Management.


 METHODOLOGY

We obtained all data and information related to space management of the FPB from representatives of
the Office of the Assistant Secretary of Administration and Management (OASAM), Business
Operations Center (BOC), Office of Space and Telecommunications Management (OSTM). We did
not independently verify the validity of the data provided by the agency.

We eliminated 1995 as a review year because OASAM purged much of the space-related information
for that year in accordance with the General Records Schedule 11, Space and Maintenance Records
Transmittal No. 8, issued December 1998. This transmittal allows for the destruction of records
relating to the allocation, utilization, and release of space under agency control, and related reports to
GSA, two years after termination of assignment, or when a lease is canceled, or when plans are
superseded or obsolete.




        1
          The related agency strategic goal is: “By FY 2002 OASAM will complete a series of cost saving
and performance enhancing initiatives including consolidation and modernization of space,
telecommunications, printing/document reproduction; and, consolidation of financial operational functions of
payroll and invoice payment, and centralization of contracting activities.”

                                                     2
                               FINDINGS AND RECOMMENDATIONS



 Finding 1 – DOL is Not Enforcing Targeted Space Utilization Rates.

 DOL’s written policies and procedures are in conformance with standards developed by the
 General Services Administration (GSA). However, enforcement by OASAM and agency
 heads of DOL’s targeted utilization rate has not occurred. As a result, we estimate that
 DOL is paying $3.5 million annually for underutilized space in the FPB.




Regulations
The DOL’s Space Management Program is authorized by the Federal Property and Administrative
Services Act of 1949, as amended (40 U.S.C. 471 et seq.); the Public Buildings Act of 1959, as
amended (40 U.S.C. 601-619); the Federal Property Management Regulations (FPMR, 41 CFR,
Chapter 101, revised July 1, 1999). GSA policy on assignment and utilization of space is found at 41
CFR 101, part 101-17.

DOL policy issuances on space management conform to the provisions of the Code of Federal
Regulations, Title 41 Public Contracts and Property Management, Chapter 101 (rev. 7-1-99).

For the period under review [Fiscal Years (FY) 1996-2000], the targeted space utilization rate2 of the
general use space3 in DOL is indicated below. The average actual utilization rate in the Frances Perkins
Building is also indicated:




                                   Targeted/Actual Utilization Rates Per FTE


         2
           An indicator of the efficiency with which space is used. It is calculated by dividing the total square
footage of the general use space in question, by the number of personnel in the space. The calculation can be made
for any of the classifications of space, but is commonly done only for “general use” as the rate has little meaning for
any other category.

         3
           Federally controlled space in buildings and structures which provide an acceptable environment for the
performance of mission by employees or by other persons occupying it, including, but not limited to, office space,
and special purpose spaces such as courtrooms, laboratories, and computer centers. General Use replaces the
following three (3) categories : 1. Office Space, 2. Special Space, and 3. Office Storage Space (2/2000).

                                                           3
         YEAR                              1996          1997             1998            1999              2000

         TARGETED                       150 sq. ft.   150 sq. ft.      150 sq. ft.     150 sq. ft.      150 sq.ft./
         UTILIZATION RATE PER                                                                           190 sq. ft.**
         FTE

         ACTUAL UTILIZATION               197.87         232.5            173.8           194.8             235.5/
         RATE PER FTE                                                                                   @ 150 sq. ft.

       * Reference Exhibit 1–Space Utilization Chart
        ** Proposed as of 2/2000–still in proposal stage as of 8/00


The targeted utilization rate of 150 square feet per person is irrespective of type of furniture, age of
building, grade levels of staff, or any other consideration. The proposed rate of 190 square feet per
person reflects GSA’s recent price policy changes. It is important to note the difference in the scope of
the current 150 square feet per person, and the proposed 190 square feet. Currently, the 150 square
feet includes “office space” only (i.e., that area assigned to personnel as their work station). The
proposed 190 square feet includes “general use” space (i.e., office space and special space and office
storage space). The additional 40 square feet per person encompasses all three categories, not only
the office space category.

Financial Impact
These figures show that DOL was not in conformance with the targeted utilization rate of 150 square
feet per person in the FPB during this period. The financial impact is that DOL is paying an estimated
$3.5 million annually for underutilization of space in the FPB, as seen below:

        Because GSA changed its method of calculating rental costs in FY 1998, we are highlighting
        two years which reflect the rent changes, plus they include contractor figures in the staffing
        totals–FYs 1998 and 1999.

                                    FPB Staff, Space & Cost Information

      Year                                                             FY 1998                       FY 1999

      Number of Staff in FPB                                             3,979                         3,943

      Estimated Space Based on Target Utilization                   596,850 sq. ft.               591,450 sq. ft.
      Rate of 150 Sq. Ft. Per Person

      Actual FPB Agency Space Utilized                              691,688 sq. ft.               768,221 sq. ft.

      Difference in Estimated and Actual Space                      94,838 sq. ft.                176,771 sq. ft.

      Overpayment of Costs for Space in FPB                          $2,213,518.90                 $4,668,522.10
                                                                    ($23.34/sq. ft.)              ($26.41/sq. ft.)




                                                          4
        By averaging the overpayment of costs for space in the FPB for FY 1998 and 1999
        ($2,213,518.90 and $4,668,522.10), we find that on average DOL has paid approximately
        $3.5 million in rent annually for space in the FPB that is underutilized. Our evaluation of the
        leased space for MSHA, SOL, and ALJ employees showed that underutilization of space in
        those locations is costing DOL approximately $1.5 million annually. Therefore,
        the estimated total monetary loss for underutilization of space in the FPB, Ballston Towers, and
        the Techworld Building is approximately $5 million annually.

In addition to highlighting the total overpayment for underutilized space in these locations, we have
demonstrated overpayment by specific agencies in the FPB in Exhibit 2–Additional Examples of
Agency Overpayment of Rent Based on Underutilization of Space. This exhibit provides details on
costs associated with space for the Veterans’ Employment and Training Service, and the Bureau of
International Labor Affairs.

Of great importance in evaluating rental costs versus utilization of space in the FPB is the fact that DOL
has an average of approximately 650 contractors working in the building. Fiscal year 2000 figures
show the total staffing figures for MSHA, SOL, and ALJ Headquarters’ employees who are working
outside the building to be approximately 360 employees. The utilization of space by contractor
employees in the FPB versus DOL employees should be emphasized by OASAM to the agency heads.
 The majority of contracted employees in the FPB are associated with information technology projects.
When feasible, agencies should explore alternatives to housing contract employees on-site, thereby
freeing-up space for additional DOL employees.

We noted at the beginning of this report that one of the strategic goals of the Office of the Assistant
Secretary for Administration and Management (strategic goal number 3.2), is to reduce DOL space bill
by more than $4.0 million by the end of FY 2000 through increased efficiency of the internal DOL
work space. This goal has not been achieved, and will not be achieved until DOL agency heads agree
to strive to attain the targeted space utilization rate, and to address the issue of housing contracted
versus DOL employees in the FPB.



 Recommendation 1:

 OASAM needs to reemphasize DOL’s space management program in the FPB. Agency heads
 should be informed they will be held accountable for making concerted efforts to achieve the
 targeted space utilization rate in accordance with DOL policy.




                                                    5
 FINDING 2 -OASAM is Not Consistently Analyzing Space Utilization Rates

 (a) Staffing information, including contractor usage, is not provided to the Office of Space
 and Telecommunications Management group annually, as required of agency heads in the
 current and draft of the revised DLMS on Space Management.

 (b) There is a lack of consistency in OASAM’s analysis of actual space utilization in the
 FPB, due in part to the agencies’ failure to provide required staffing information. For
 example, (a) the targeted versus actual space utilization rates of DOL agencies, (b) agency
 costs versus utilization rates, and (c) use of space in the FPB by contracted employees has
 not been consistently examined, with results communicated to agency heads. OASAM has
 both the staff and the ability to perform the analysis when all the required information is
 received.

FPB Staffing Information: We were able to piece together staffing information from a variety of
reports which shows that the DOL population in the FPB increased from 3,641 to 3,943 employees
from FY 1996 to FY 1999, as indicated in the figures below. While fiscal years 1996, 1998, and
1999, include contractor numbers provided by the agencies to OSTM, contractor numbers were not
provided to OSTM for fiscal years 1997 and 2000.

                                 Staffing in the Frances Perkins Building
                                               (HR Statistics)
                 Year        FY 1996       FY 1997*       FY 1998       FY 1999      FY 2000*

               Staffing        3,641         3,248         3,979         3,943         3,310
            * Does not include contractor numbers


While OASAM conducted a variety of ad hoc analyses on staffing versus space utilization, (which
consistently support our findings that space in the FPB is being underutilized), we could find no
consistency in analyzing staff, including contractors, versus actual space utilization for the review period.


Nevertheless, data reveals that on average there are approximately 650 contractors working in the FPB
annually. This plays a significant role in blocking OASAM’s attempts to move DOL Headquarters’
employees who are currently located outside the FPB, into the building. While the financial impact of
housing contractors in the FPB is addressed in finding number one, the statistics alone highlight the need
for consistent review of staffing information, including contractors.




                                                      6
DLMS Responsibilities for Space Management : Responsibilities for implementation of DOL’s
space management program are detailed in the Department of Labor Manual Series (DLMS), section
2–Administration, Chapter 400–Space Management, section 413,
Responsibilities. This DLMS has been in effect since March 1979, and delineates the space
management responsibilities in DOL. Reference Exhibit 3 for specific information.

In February 2000, OASAM issued a draft proposal to revise this DLMS. The proposed section
413–Responsibilities, continues to charge the DOL Agency Heads with responsibility for providing
staffing information to OSTM when needed. Ownership of requesting the required staffing information
is assigned to OSTM, while ownership of providing all requested staffing information is assigned to the
agency heads.

Space Utilization Reports: We attempted to conduct a five-year trend analysis on space utilization in
the FPB, covering FYs 1996-2000 (reference Exhibit 1). We were provided numerous reports
showing utilization rates for a specified period of time, but there were no consistent reports which
displayed the actual space utilization rate versus the targeted utilization rate for each agency for the five
year period. As mentioned above, accurate staffing information was missing for fiscal years 1997 and
2000, since no contractor information was provided to OSTM by the agency heads. It is not possible
to calculate the true space utilization rate without contractor information because the results will be
misleading. We believe that OASAM has both the staff and the ability to perform the analysis when all
the required information is received.

In attempting to conduct the five-year space utilization trend, we abstracted information from a variety
of reports provided by OSTM. While we made numerous efforts to include analysis of space-related
costs for each agency for the same period, such information was difficult to abstract from the numerous
reports. There was a lack of consistency in the identification of actual square footage costs associated
with each agency for the five-year period. This was primarily due to the fact that GSA changed its
method for calculating its rental rates during this period, as previously mentioned.

Prior to the change, the rate was calculated based on 16 different classes of information, resulting in an
“office space” rate. The rental rate per square foot for fiscal years 1996 and 1997, prior to the change,
is shown at $38.49, while the rates for fiscal years 1998, 1999, and 2000 reflect the new blended rate,
using only four classifications–$23.34, $26.41, and $26.85 respectively. When using these figures in a
five-year trend analysis, the results were so skewed that they were rendered meaningless. Therefore,
we eliminated the rental costs paid by each agency during the
review period as part of our overall trend analysis. Reference Exhibit 4 for additional information on
the GSA price policy changes.




                                                    7
Recommendation 2:

(a) OASAM/OSTM should inform agency heads of the need to obtain accurate staffing information,
including contractor usage, on a quarterly basis. Each agency and sub-agency (e.g., ESA–OMAP,
OFCCP, OLMS, OWCP, WHD, etc.) should be held accountable for providing OSTM with
support documentation pertaining to the staffing numbers (e.g., employee name, social security
and/or badge number, and job title for DOL and contractor employees alike). Should an agency fail
to provide staffing information on a regular basis, the agency head should be notified.

(b) OASAM should conduct quarterly analyses on space utilization for each agency and sub-agency
in the FPB, and on that leased space outside the FPB which houses headquarters’ employees. The
reports should highlight: the targeted versus actual utilization rate; actual rental costs versus targeted
rental costs; and use of space by contracted employees, including associated rental costs.

(c) The resulting utilization trend reports should be disseminated to each agency and sub-agency
quarterly.

(d) The draft of the revised DLMS on space management should continue to assign the responsibility
for providing specific staffing information, including contractor usage, to the agency heads, and assign
the responsibility for requesting the information to OSTM.




                                                    8
Finding 3–DOL’s Space Initiative was not Achieved

The objective of the space initiative was to increase the effective utilization of space within
the FPB through internal realignments and the relocation of Headquarters’ employees from
satellite locations into the FPB, leaving only the Bureau of Labor Statistics located in the
Postal Square Building. In 1998 OASAM estimated that the downsizing and relocation
initiative would save the Department a minimum of approximately $3,900,000 in rent each
year after completion.

Several planned moves for the consolidation of DOL Headquarters’ staff into the FPB were
not completed. Several planned internal realignments of agencies in the FPB did not occur.

DOL pays approximately $34 million in annual rent to GSA for the FPB. The Department pays an
additional $22 million annually to house the Bureau of Labor Statistics Headquarters’ employees in the
Postal Square Building. Over $4 million is paid for rent in six additional buildings in the metro area,
which house other Headquarters’ employees.

During the period under review, OASAM planned for the consolidation of DOL staff into the FPB.
One phase of transforming the FPB into a true Headquarters building was to restructure the space of
some of the agencies already in the FPB. The plan was especially important for those agencies that had
underutilized space. Another phase was to move some of the agencies currently outside of the FPB
into the building.

We are highlighting some of the results of these planned space initiatives below. Section A highlights
some proposed space realignment plans in the FPB which did not occur, while Section B provides
information on the proposals to move into the FPB those Headquarters’ employees working in leased
space outside the FPB

Major Planned Space Realignments Within the FPB Which Did Not Occur

There were three major pending space realignments planned during the period under review which did
not occur. In correspondence dated 1997, the OSTM noted that a substantial savings in the amount of
$2.7 million would occur if DOL’s realignment plans were approved by the American Federation of
Government Employees–Local 12. OASAM has documented their encouragement of Local 12's pre-
decisional involvement in space-related moves of the agencies. However, the General Counsel of the
Federal Labor Relations Authority informed OASAM that
no further negotiations are required at the Departmental level. It thus becomes the responsibility of
each DOL agency to consult and/or negotiate its specific space changes.




                                                   9
There were three agency realignment plans highlighted in OASAM’s summary of planned internal
realignments which involved some form of union participation:

       (1) ESA-Office of Federal Contract Compliance Programs (OFCCP):
       OASAM reported that the agency agreed to release 7,055 square feet of space. The space
       was redesigned and the floor plan submitted by management to Local 12 for approval. Local
       12 did not approve the plan. No documentation was provided to show any action was taken
       on the plan from 1997 through the date of our review.

       Update information provided by OFCCP following the Inspector General’s (IG)
       request:
       By memorandum dated June 29, 2000, the Acting Director, Office of Management
       Administration and Planning, Employment Standards Administration, noted that information we
       had been provided was 4 years old, that both the FTE allocation and the IT contractors
       working for OFCCP have changed, thus rendering the 1997 space plan inoperative. It was
       confirmed that OFCCP and Local 12 attempted to reach agreement through formal
       negotiations in 1997, when the plan was viable. Agreement could not be reached, at which
       time both sides agreed to request mediation. No formal request for mediation went forward to
       the Labor Management Review Committee and no further action has occurred.

       Conclusion:
       Using the 150 square feet per person ratio in effect for FYs 1998-2000, the following utilization
       and cost information is calculated:

                             Office of Federal Contract Compliance Programs
                                          Space Utilization Trend

                                                         1998             1999              2000

           Staffing                                        88               91                94

           Targeted Space Utilization (sq. ft.)         13,200           13,650            14,100

           Actual Space Utilization (sq. ft.)           18,695           18,695            18,695

           Amount of Space Above Target (sq. ft.)        5,495            5,045             4,545

           Over Payment                               $128,253.30      $133,238.45       $122,033.25
                                                    (23.34/sq. ft.)   (26.41/sq. ft.)   (26.85/sq. ft.)


       (2) Bureau of International Labor Affairs (ILAB):
       OASAM reported that the agency agreed to release 6,615 square feet of space. Once the
       issue is resolved, the Administrative Law Judges (ALJ) will move into the space vacated by

                                                      10
ILAB. No documentation was provided to show any action was taken on the plan from 1997
through the date of our review.

Update information provided by ILAB following the IG’s request:
By memorandum dated June 28, 2000, the Deputy Under Secretary for ILAB informed us that
due to additional FTEs funded in FY 2000, the agency will no longer be releasing any space.
Current plans call for some realignment and upgrading of ILAB’s space, with a net gain of 65
square feet. The agency has consulted with OSTM and Local 12 regarding the plans.

Conclusion:
We were able to confirm through OASAM and through budget information that ILAB’s
proposed staffing will necessitate a need for additional space. Therefore, the 1997
realignment/reduction proposal is not viable at this time. However, as noted in finding number 4
B below, based on the number of ILAB employees in the FPB during fiscal years 1998, and
1999, the agency paid $460,343.25 more than it should have, based on the targeted utilization
rate of 150 square feet per person.

(3) Women’s Bureau (WB):
OASAM reported that the agency agreed to release 3,340 square feet of space. The space
was redesigned and the floor plan was submitted by management to
their agency local 12 representative. The plan was rejected by Local 12. No documentation
was provided to show any action was taken on the plan from 1997 through the date of our
review.

Update information provided by WB following the IG’s request:
By memorandum dated June 16, 2000, the Director of the Women’s Bureau informed us that
realignment/reduction of WB space is a closed issue. The memorandum states that OASAM
invited the WB to relinquish 3,340 square feet of its space in April 1999, based on a need to
house a research group and another DOL agency in the FPB. Due to FY 1999 projected
budgetary challenges, the WB explored the possibility of a space realignment/reduction with
OSTM, OLMS, and Local 12, through a series of meetings that never escalated to formal
negotiations with Local 12. The WB further states that these conditions no longer existed in
early FY 2000, (other locations were used for the
two groups and the budgetary concern no longer existed), therefore the space
realignment/reduction proposal was canceled.

Conclusion:
Using the 150 square feet per person rate in effect for FYs 1998-2000, the following utilization
and cost information is calculated:



                                           11
                                Women’s Bureau Space Utilization Trend

                                                      1998              1999              2000

             Staffing                                  42                40                40

             Targeted Space Utilization              6,300             6,000             6,000

             Actual Space Utilization                9,910             9,910             9,910

             Amount of Space Above Target            3,610             3,910             3,910

             Over Payment                       $84,257.40        $103,263.10       $104,983.50
                                                (23.34/sq. ft.)   (26.41/sq. ft.)   (26.85 /sq. ft.)


Both OFCCP and the WB continue to underutilize their space in the FPB, based on staffing. We
believe the agencies should be made aware of the costs associated with the underutilization, and
instructed to vigorously pursue required labor/management negotiations in order to effect the changes
necessary to achieve compliance with the targeted space utilization rate.


 Recommendation 3 (a):

 Following the completion of the first quarterly space utilization analysis for the Women’s Bureau and
 the Office of Federal Contract Compliance Programs, OASAM should reevaluate the need for the
 agencies to pursue labor negotiations with Local 12. The decision to request that the agencies move
 forward with the stalled union negotiations should be dictated by the difference between the actual
 and targeted utilization rates, based on current staffing figures which have been verified by OSTM.
 Use of contractors by OFCCP and the WB should also be addressed in the report. OSTM should
 highlight the cost factors in allowing the agencies to continue their underutilization of space, as well as
 costs associated with contracted employees.
 Agency heads (OFCCP and WB) and the Assistant Secretary for ESA should be notified in writing
 of OASAM’s findings.




                                                     12
Planned Movement Into the FPB During Review Period

OASAM presented a variety of proposal objectives for moving the Benefits Review Board (BRB), the
Employees’ Compensation Appeals Board (ECAB), the Mine Safety and Health Administration
(MSHA), some of the Solicitor of Labor (SOL), and the Administrative Law Judges (ALJ), into the
Frances Perkins Building during the review period. Following are the results of the proposals:

       (1) The Benefits Review Board was located in the Techworld Plaza through FY 96.
       OASAM was able to successfully move the group into the FPB, realizing the following savings
       from the move:


                                       Benefits Review Board Move

            Estimated Staff                               100

            Actual Space (in Techworld)                   32,504 square feet

            Targeted Space at FPB                         16,480

            Annual Lease Cost (Techworld)                 $1,155,463

            FPB Cost                                      $634,315

            Lease Savings                                 $521,148

            Moving Expenses                               $216,250
            (including internal readjustments)

            Total Savings First Year                      $304,898

            OASAM Projected Savings for FY 1997           $1,155,463
          Date of data: 11/97


       (2) The Employees’ Compensation Appeals Board (ECAB) was located in the Reporters
       Building through August 11, 1996. OASAM was able to successfully move the group into the
       FPB. A net increase was realized in the move:




                                                  13
                           Employees’ Compensation Appeals Board
       Estimated Staff                                50

      Actual Space (Reporters Bldg.)                  7,688 square feet

      Targeted Space at FPB                           8,755

      Annual Lease Cost (Reporters Bldg.)             $231,178

      FPB Cost                                        $336,980

      Moving Expenses                                 no information

      Rent Increase First Year                        $105,802

      OASAM Projected Savings for FY 1997             $231,178
     Date of data: 11/97


(3) The Mine Safety and Health Administration is located in the Ballston Towers. The
planned moved of MSHA into the FPB has not occurred. OASAM informed us recently that
the proposed plans to move MSHA have now been canceled. Had MSHA been moved into
the FPB as planned, the following savings would have been realized:

                           Mine and Safety Health Administration
    Staff                                           239

    Actual Space (Ballston Towers)                  56,324 square feet

    Actual Utilization Rate Per Person              235.67 sq. ft.

    Targeted Space in FPB
    at 150 sq. ft. per person                       35,850 square feet

    Actual Annual Cost (Ballston Towers)            $1,260,852

    Targeted Cost ($26.85 per sq. ft. in FPB        $962,572.50
    at 150 sq. ft.)

    Difference in Actual/ Targeted Costs
    at current rate of $26.85/sq. ft.               $298,279.50
    at 150 sq. ft. per person

    Proposed Annual Rent Savings if Moved to FPB
    at 150 sq. ft. per person                       $298,279.50

   February 2000 Data


(4) The Solicitor of Labor also has some employees located in the Ballston Towers. The
planned moved of these SOL employees into the FPB has not occurred. OASAM has


                                               14
       informed us recently that the proposed plans to move SOL have now been eliminated.

       Had SOL been moved into the FPB as planned, the following savings would have been
       realized:

                                      Solicitor of Labor/Ballston Towers
                  Staff (National Office employees)                     34

                  Actual Space (Ballston Towers)                        6,897 sq. ft.

                  Actual Utilization Rate Per Person                    202.85 sq. ft.

                  Targeted Space in FPB
                  at 150 sq. ft. per person                             5,100 sq. ft.

                  Actual Annual Cost (Ballston Towers)                  $247,908

                  Targeted Cost ($26.85 per sq. ft. in FPB)
                  at 150 sq. ft. per person                             $136,935

                  Difference in Actual/ Targeted Costs Annually
                  at 150 sq. ft. per person                             $110,973

                 February 2000 Data


       (5) The Administrative Law Judges are located in the Techworld Plaza. The planned
       moved of the ALJ into the FPB has not occurred. Had the ALJ been moved into the FPB as
       planned, the following savings would have been realized:

                                         Administrative Law Judges
               Estimated Staff                                    84

               Actual Space (Reporters Bldg.)                     28,739 square feet

               Targeted Space at FPB                              13,350

               Annual Lease Cost (Reporters Bldg.)                $955,814

               FPB Cost                                           $529,728

               Projected Moving Expenses (w/furniture)            $371,280

               Annual Rent Savings                                $426,086

               OASAM Projected Savings for FY 1998                $1,071,444
             February 2000 Data


Review of the data presented clearly demonstrates a need to reevaluate, from a cost savings view, the
planned proposals to move agencies such as MSHA, SOL, and ALJ into the FPB, and to encourage

                                                       15
resolution of outstanding space related issues with Local 12. We realize there are costs associated with
these kinds of realignments and relocations, (i.e. space reconfigurations, moving, furniture, etc.), and we
provided such information in our analyses when it was available. In several cost projections associated
with internal realignments and relocations, OASAM calculated estimates that revealed recurring cost
savings for agencies if they accepted the initial expenditures associated with the realignments and
relocations.


 Recommendation 3 (b):

 Upon completion of the space utilization trend analyses for each agency and sub-agency in the FPB,
 and for the leased space which houses Headquarters’ employees, OASAM should
 reevaluate the feasibility of moving any or all of these agencies into the FPB–MSHA, ALJ, SOL.
 This evaluation should include analysis on the amount of space used by contractors in the FPB versus
 the amount of space needed to move these agency Headquarters’ employees into the FPB. The
 report should contain specific recommendations and outcomes based on associated costs incurred
 and potential savings (i.e. rental fees, estimated move costs, etc.). The report should be shared with
 the Office of the Secretary of Labor.




                                                    16
                     OASAM RESPONSE AND OIG CONCLUSIONS

OASAM Response

“I have reviewed your draft report on Space Utilization in the Frances Perkins Building, and
genereally concur with your findings. We are currently proceeding to implement your
recommendations. However, it should be noted that we will continue to evaluate our progress as
we move forward and will revise our options and management approach, as necessary, to obtain
the best results.”

OIG Conclusions

1.     Recommendation to Finding #1:

       OASAM needs to reemphasize DOL’s space management program in the FPB. Agency
       heads should be informed they will be held accountable for making concerted efforts to achieve
       the targeted space utilization rate in accordance with DOL policy.

       Conclusion: We consider this recommendation to be resolved. The recommendation will be
       closed pending our receipt of OASAM’s notification to agency heads, reminding them of their
       accountability for making concerted efforts to achieve the targeted space utilization rate.
       Please provide written documentation to this office regarding such notification by
       October 30, 2000.

2.     Recommendations to Finding #2:

       (a) OASAM/OSTM should inform agency heads of the need to obtain accurate staffing
       information, including contractor usage, on a quarterly basis. Each agency and sub-agency
       (e.g., ESA–OMAP, OFCCP, OLMS, OWCP, WHD, etc.) should be held accountable for
       providing OSTM with support documentation pertaining to the staffing numbers (e.g., employee
       name, social security and/or badge number, and job title for DOL and contractor employees
       alike). Should an agency fail to provide staffing information on a regular basis, the agency head
       should be notified.

       Conclusion: We consider this recommendation to be resolved. The recommendation will be
       closed pending our receipt of OASAM’s notification to agency heads, reminding them of their
       responsibility to provide OASAM with staffing information, including contractor usage, on a
       quarterly basis beginning the first quarter of fiscal year 2001. Please provide written
       documentation to this office regarding such notification by October 30, 2000.


                                                  17
     (b) OASAM should conduct quarterly analyses on space utilization for each agency and sub-
     agency in the FPB, and on that leased space outside the FPB which houses headquarters’
     employees. The reports should highlight: the targeted versus actual utilization rate; actual rental
     costs versus targeted rental costs; and use of space by contracted employees, including
     associated rental costs.

     Conclusion: We consider this recommendation to be resolved. The recommendation will be
     closed pending our receipt of OASAM’s first quarterly report. Please provide copies of the
     analyses covering the period October 1, 2000 through December 31, 2000, to this
     office by February 16, 2001.

     (c) The resulting utilization trend reports should be disseminated to each agency and sub-
     agency quarterly.

     Conclusion: We consider this recommendation to be resolved. The recommendation will be
     closed pending our receipt of documentation that OASAM has disseminated the first quarterly
     report. Please provide written documentation to this office regarding such
     dissemination by February 16, 2001.

     (d) The draft of the revised DLMS on space management should continue to assign the
     responsibility for providing specific staffing information, including contractor usage, to the
     agency heads, and assign the responsibility for requesting the information to OSTM.

     Conclusion: We consider this recommendation to be resolved. The recommendation will be
     closed pending our receipt of the subject DLMS. Please provide a copy of the revised
     DLMS to this office by October 30, 2000.


3.   Recommendations to Finding #3:

     OASAM should reevaluate the proposals for realignment of agencies within the FPB, and the
     relocation of MSHA, SOL and the ALJ into the FPB, through the following steps:

     (a) Following the completion of the first quarterly space utilization analysis for the Women’s
     Bureau and the Office of Federal Contract Compliance Programs, OASAM should reevaluate
     the need for the agencies to pursue labor negotiations with Local 12. The decision to request
     that the agencies move forward with the stalled union negotiations should be dictated by the
     difference between the actual and targeted utilization rates, based on current staffing figures
     which have been verified by OSTM. Use of contractors


                                                  18
       by OFCCP and the WB should also be addressed in the report. OSTM should highlight the
       cost factors in allowing the agencies to continue their underutilization of space, as well as costs
       associated with contracted employees. Agency heads (OFCCP and WB) and the Assistant
       Secretary for ESA should be notified in writing of OASAM’s findings.

       Conclusion: We consider this recommendation to be resolved. The recommendation will be
       closed pending our receipt of OASAM’s findings as reported to OFCCP, WB and the
       Assistant Secretary for ESA. Please provide this office a copy of the findings by April
       13, 2001.

       (b) Upon completion of the space utilization trend analyses for each agency and sub-agency in
       the FPB, and for the leased space which houses Headquarters’ employees, OASAM should
       reevaluate the feasibility of moving any or all of these agencies into the FPB–MSHA, ALJ,
       SOL. This evaluation should include analysis on the amount of space used by contractors in the
       FPB versus the amount of space needed to move these agency Headquarters’ employees into
       the FPB. The report should contain specific recommendations and outcomes based on
       associated costs incurred and potential savings (i.e. rental fees, estimated move costs, etc.).
       The report should be shared with the Office of the Secretary of Labor.

       Conclusion: We consider this recommendation to be resolved. The recommendation will be
       closed pending our receipt of OASAM’s report to the Office of the Secretary of Labor.
       Please provide this office a copy of the report by April 13, 2001.




Contributors to this report:

Barbara Farrell, Project Leader
Dennis Raymond

Gregory D. Simmons, Director, Division of Evaluations and Inspections




                                                   19
                  EXHIBIT 1

Space Utilization of the Frances Perkins Building
                  FY 1996–2000




                       20
                                               SPACE UTILIZATION FOR THE FRANCES PERKINS BUILDING
                                                               Fiscal Years 1996–2000

                             FY 1996                            FY 1997                             FY 1998                           FY 1999                            FY 2000

                  STAFF*                              STAFF                              STAFF                             STAFF                             STAFF
  AGENCY         (w/cont.) SPACE           UR**      (no cont.) SPACE          UR       (w/cont.) SPACE           UR      (w/cont.) SPACE           UR      (no cont.) SPACE           UR


OASAM                  518 105,980           204.6        442    109,859       248.5          452     70,802      156.6        626     110,304       176.2      461 110,955             240.7
OIG                    190  28,954           152.4        150     29,420      196.13          188     25,745      136.9        188      29,405       156.4      151  29,405             194.7
PWBA                   253  43,890           173.5        234     43,890       187.6          253     41,570      164.3        268      46,390       173.1      234  46,390             198.2
ILAB                    80  21,470           268.4         93     20,115       216.3           68     18,380      270.3         75      20,215       269.5       89  20,215             227.1
OCFO                  110+  18,515           168.3         85     18,465       217.2          132     17,865      135.3        109      18,465       169.4       92  18,465             200.7
OSHA                   393  86,330           219.7        371     98,285       264.9          575     87,325      151.9        498     100,780       202.4      393 100,780             256.4
ETA                    771 132,714           172.1        597    137,146       229.7          756    134,146      177.4        734     139,346       189.8      596 139,346             223.8
O/SECY                  58  26,005           448.4         58     26,005       448.4           66     25,835      391.4         66      25,835       391.4 188++(77) 69,767             371.1
ASP                      30  8,285           276.2         31      8,595       277.3           30      8,295      276.5         30       8,295       276.5       30
OCIA                    35   7,895           225.6         31      7,895       254.7           25      7,895      315.8         28       7,895       282.0       28
OPA                     22   6,142           279.2         30      6,142       204.7           29      8,537      294.4         24       8,537       355.7       24
ARB (OAA)               22   5,030           228.6         20      3,105       155.3           16      3,505      219.1         19       3,505       184.5       19
DSA                                                                                            10      2,225      222.5         10       2,225       222.5       10
WB                      45   9,910           220.2         44      9,910        225.2          42      9,910      236.0         40       9,910       247.8       40   9,910             247.8
BRB                    145  16,480           113.7        123     16,480        134.0         100     16,480      164.8         88      15,330       174.2       78  15,030             192.7
ECAB                    30   8,030           167.3         48      8,755        182.4          48      8,780      182.9         50       8,780       175.6       50   8,780             175.6
ESA                    617 117,330           190.2        495    120,380        243.2         758    118,288      156.1        760     123,039       161.9      556 121,549             218.6
SOL                    295  84,975           288.1        365     81,725        223.9         400     79,430      198.6        408      82,240       201.6      346  81,200             234.7
VETS                    29   8,975           309.5         31      8,975        289.5          31      6,675      215.3         27       7,725       286.1       36   7,725             214.6


TOTALS             3,641      720,430    197.87       3,248     755,147      232.5       3,979      691,688     173.8       3,943     768,221      194.83      3,310     779,517      235.5


        *  Agency staffing statistics, including contractors, were provided by the Agencies to OSTM for fiscal years 1996, 1998, 1999; staffing statistics for fiscal years 1997 and 2000 were not provided
  by                    the Agencies; figures for those years are provided by the Human Resources Center, and do not reflect contractor numbers.
       ** Utilization Rate: calculated by dividing the total staff by the total office space. The UR is the average square feet per person.
       +  Includes Office of Budget
       ++ OSEC space information was provided in a lump sum for FY 2000; it includes the groups listed under it with no space information




                                                                                         21
             EXHIBIT 2

Examples of Agency Overpayment of Rent




                  22
                                         Examples of Overpayment of Rent


In addition to the total overpayment in the FPB discussed in finding number four “Overpayment for Space”, we have
selected a few agencies to highlight this issue:


       A.      Veterans’ Employment and Training Service

                                    VETERANS EMPLOYMENT AND TRAINING SERVICE


                   Year     Staff      Space       Actual        Targeted       Difference    Associated
                                       sq. ft.     Utilization   Space          in Space      Cost
                                                   Rate          (150 sq. ft.   Sq. Ft.       Difference
                                                   (sq. ft.)     X staff)

                   1998     31         6,675       215.3         4,650          2,050         $54,140.50
                                                                                              (@$26.41/sq. ft.)

                   1999     27         7,725       286.1         4,050          3,675         $99,210.75
                                                                                              (@26.85/sq. ft.)


                                                                                2 Year
                                                                                Difference    $153,351.25




       B.      Bureau of International Labor Affairs

                                       BUREAU OF INTERNATIONAL LABOR AFFAIRS

                  Year    Staff     Space        Actual          Targeted       Difference       Associated
                                    sq. ft.      Utilization       Space         in Space           Cost
                                                 Rate            (150 sq. ft.     Sq. Ft.        Difference
                                                 (sq. ft.)         X staff)

                  1998      68      18,380          270.3          10,200          8,180      $219,633.00
                                                                                              (@$23.34/sq. ft.)

                  1999      75      20,215          269.5          11,250          8,965      $240,710.25
                                                                                              (@26.85/sq. ft.)


                                                                                2 Year
                                                                                 Difference   $460,343.25




                                                                 23
                 EXHIBIT 3

Current DLMS Space Management Responsibilities




                      24
 DOL AGENCY H EADS ARE RESPONSIBLE FOR:                            O FFICE DIRECTOR, O FFICE OF SPACE
                                                                   M ANAGEMENT, DAPS, IS RESPONSIBLE FOR:
 (1) Ensuring that a space management program consistent
 with the policies, procedures, standards, and guidelines          (1) Planning and coordinating the DOL Space Management
 included in Chapter 400 of DLMS 2 is conducted within the         Program relating to the acquisition of real property and its
 respective Agency's area of jurisdiction.                         continued management. This includes the coordination of
                                                                   all activities relating to the major improvements or additions
 (2) Designating a space management representative at the          to existing buildings, and alterations and repairs to
 DOL National Agency level, and forwarding in writing the          buildings housing all DOL activities.
 names of representatives to the Office Director, Office of
 Space Management (OSM), Directorate of Administrative             (2) Assigning and reassigning real property and space
 Programs and Services (DAPS), Office of the Assistant             holdings to DOL Agencies in coordination with the GSA.
 Secretary for Administration and Management (OASAM)
                                                                   (3) Developing and maintaining space management
                                                                   standards and guidelines for departmental activities.
 (3) Informing the OSM or RA-OASAM of their space
 requirements.                                                     (4) Developing long-range plans and programs for the
                                                                   housing of departmental activities in the Washington
 (4) Providing the following information upon approval of          metropolitan area.
 each fiscal year budget:
                                                                   (5) Developing and maintaining policy and procedural
 (a) Staffing patterns, e.g., the number of employees to be        instructions related to the management of real property.,
 located in each geographic area by grade, position title,
 supervisory status, and organizational units; (b) Total           (6) Serving as the Department's principal representative to
 distribution of approved authorized budgeted positions by         Federal, State, and District of Columbia Government
 geographic area; (c) Information required to continuously         officials and private realty firms; engineers; architects; and
 study and maintain records of assigned space, upon                building owners and operators for matters concerning the
 request, to the OSM or the Regional OASAMs.4                      construction, acquisition, renovation, repair, and
                                                                   improvement of real property not under GSA control in the
 (5) Promptly reporting to the OSM or Regional                     Washington metropolitan area. Liaison services between
 Administrators-OASAM space, assigned which is no                  the GSA and the regions are provided to the Regional
 longer needed.                                                    Administrator--OASAM upon request to the OSM.

 (6) Providing funds necessary for space rentals, building         (7) Conducting periodic surveys of space utilization in the
                                                                   Washington metropolitan area to ensure that assigned
 alterations, and services.
                                                                   space is being used efficiently and economically.
 (7) Obtaining approval from the OSM, or at the regional           (8) Furnishing policy guidance and technical assistance to
 level from the RA-OASAM, prior to any and all space-              DOL Agency space representatives and Regional
 related internal or external (between buildings) moves.           Administrators-OASAM on space management matters.

                                                                   (9) Securing approval for the commitment of funds from
                                                                   DOL National Offices for the payment for space,
                                                                   renovation, moving costs, etc., for the Washington
                                                                   metropolitan area.




        4
         This highlights the current and proposed DLMS
Space Management Policy responsibilities as it relates to
agency heads.

                                                              25
           EXHIBIT 4


New Pricing Policy Information/GSA




                26
                                    New Pricing Policy/GSA


GSA developed its pricing policy, called New Pricing, in response to the concerns of customers,
changes in the way the U.S. government conducts business, and the competitive pressures of the
marketplace. New Pricing is based on market-based mechanisms to provide a variety of benefits.


New Pricing has four space categories. Generally, no more than two will be present in any one
building. Determined by the predominate use of the space, these categories are broad in concept, and
acknowledge the need for flexibility to use space in the way that best serves the mission of the agency.
The categories are:
            General use. Most space falls into this category. It includes general office space and
            special-purpose spaces as courtrooms, laboratories, and computer centers. It replaces the
            following categories that existed under the previous pricing system: office space, special
            space and office storage space.
            Parking. Before, parking was measured in terms of square footage. The current process
            is to simply count the number of parking spaces included in the Occupancy Agreement.
            Parking is designated as surface when the spaces are outside, or structured when they
            are inside a garage.
            Warehouse. The warehouse designation applies to properties where 70% or more of the
            space is used for storage.
            Unique. Some properties, such as border stations, fulfill purposes that have no equivalent
            in the private sector and therefore cannot be priced by a reasonable market comparison.
            This category accounts for such one-of-a-kind situations.
Except for parking and certain types of unique space designations such as antennas, space is
recorded and billed by the square foot. The Occupancy Agreement shows the measurement in two
ways:
            Rentable square feet. This measurement uses the ANSI/BOMA (American National
            Standards Institute/Building Owners and Management Association) system that is the
            most commonly used standard in the real estate industry. It enables you to make easy
            comparisons with market equivalents.
            Usable square feet. This measurement affords you ease and precision in analyzing lease
            offers and your use of space. It is analogous to occupiable square feet, the measurement
            we formerly used.




                                                   27
  APPENDIX

Agency Response




      28
